                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




February 13, 20 12

MEMORANDUM FOR:                Scott B. Quehl
                               Chief Financial O~cer and Assistant Secretary for Administration


FROM: 	                        Ann C. Eilers J/l li         ~. rf,{u_,
                               Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                     Single Audit Results for the 12-Month Period Ending
                               December 3 I, 20 I I

Nonfederal entities (states, local governments, tribes, colleges and universities, and nonprofit
organizations) that expend $500,000 or more in a year of federal awards are required by the
Single Audit Act of 1984, and Amendments of 1996, to have an annual audit of their federal
awards. The purpose of the Act is to set forth standards for obtaining consistency and
uniformity among federal agencies with the audit of nonfederal entities expending federal
awards.

All auditees electronically submit to the Federal Audit Clearinghouse a data collection form (a
summary of audit results), as well as a copy of the reporting package consisting of:

   • 	 financial statements,
   • 	 a schedule of expenditures of federa l awards,

   • 	 a summary schedule of prior audit findings,
   • 	 auditor's reports of compliance and opinion on the financial statements, and

   • 	 a corrective action plan.

Federal awarding bureau responsibilities in connection with the Single Audit Act include:

   • 	 advising recipients of requirements imposed on them by federal laws, regulations, and
       the provisions of contracts or grant agreements,

   • 	 ensuring audit completion and report receipt;
   • 	 providing technical advice to auditees and auditors; and
   • 	 issuing a management decision on audit findings within 6 months after receipt of the
       audit report-and ensuring that the recipient takes appropriate and timely corrective
       action. See OMB Circular A-133, Subpart D, section 400 (c).
OIG is responsible for thoroughly reviewing the issued audit report and auditee responses,
considering carefully each finding and recommendation, and determining whether the
recommendations can and should be implemented. For reports with nonresolution findings, we
notify the bureau of the finding(s) and emphasize the importance of resolution of the findings(s)
prior to the next audit; however, a formal response is not required. In instances with material
findings, DAO 213-5, "Audit Resolution and Follow-Up," requires a formal response. We work
with the bureaus to ensure they prepare written determinations, specifying concurrence or
nonconcurrence with each recommendation. The written determination presents a specific plan
of corrective action, with appropriate target dates for implementing all accepted
recommendations. We conduct this review on an ongoing basis-and we intend to present
summary analyses on a semiannual basis.

This memorandum provides an analysis of single audit reports, including a summary of findings
that OIG reviewed during the 12-month period ending December 31, 20 I I. We reviewed each
report for compliance with the reporting requirements of OMB Circular A-133 (but not the
quality of the underlying audits) and analyzed the results. (Find our observations in table I
below.)

                                        Table I.
       Analysis by Bureau for OIG-Reviewed Calendar Year 20 II Single Audit Reports
                                            Percentage
                               Reports
                 Reports                    of Reports      Material      Non resolution       Total        Questioned
Bureau                           with
                Reviewed                       with         Findingsa       Findingsb         Findings        Costs<
                               Findings
                                             Findings
EDAd               128            35            27              21              142              163        $1,995,271
NOAA                60            12            20              IS               42               57         6,083,137
NTIA                22             6            27              20               14               34         1,843,908
NIST                40             6            IS              12               23               35                 0
Multiple            80             9            II               0                0                0                 0
MBDA                 I             0             0               0                 I                I                0
ITA                  I             0             0               0                0                0                 0
TOTAL              332            68            20              68              222              290       $9,922,316
• Material findings are those with questioned costs greater than $1 0,000 and/or significant nonfinancial findings. Reports
identifying material find ings have been forwarded to the appropriate program and grants officials for resolution action .
b Non resolution findings are those with questioned costs less than $10,000 or administrative findings. Reports
identifying these findings have been forwarded to grants officials.
c   Questioned costs are subject to change through the audit resolution/appeal process.
d   EDA also had $90,955 in funds to be put to better use.

As shown in table I, there were:

      •    20% of all reports reviewed that contained at least one finding,
      •    between 12 and 21 material findings at each of four Commerce bureaus,
      •    between I and 142 nonresolution findings at each of five Commerce bureaus, and
      •    $9.9 million of questioned costs for all Commerce programs.




                                                          2

 Table 2 (below) provides a summary analysis of reports reviewed, including the number of
 reports with findings (both material and nonresolution), with emphasis on the number of
 material findings by Commerce program:

                                      Table 2.
 Findings in OIG-Reviewed Calendar Year 20 II Single Audit Reports by Commerce
  Program, Identified by Catalog of Federal Domestic Assistance (CFDA) Number
                                                                         Number of    Number of      Percentage
                                                                                                                    Material
 Bureau                      Program                      CFDA            Reports    Reports with    of Reports
                                                                                                                    Findings
                                                                         Reviewed      Findings     with Findings
          Economic Adjustment Assistance-
 EDA                                                      11.307            114          61              54            12
          Revolving Loan Fund (RLF) Program
          Investments for Public Works and
 EDA                                                      11.300            48           26              54            9
          Economic Development Facilities
          Coastal Zone Management
 NOAA                                                     11.419            37            6              16            4
          Administration Awards
          Coastal Zone Management Estuarine
 NOAA                                                     11.420            21            I               5            2
          Research Reserves
  NOAA    Marine Mammal Data Program                      11.439            7             2              29            2
- NOAA    Inter-Jurisdictional Fisheries Act of 1986      11.407            10            I              10            I
          Financial Assistance fo r National Centers
 NOAA                                                     11 .426           7             I              14            I
          for Coastal Ocean Science
NOAA      Marine Fisheries Initiative                     11.433            8             I              13            I
 NOAA     Cooperative Fishery Statistics                  11.434            6             I              17            I
          Southeast Area Monitoring
 NOAA                                                     11 .435           10            I              10            I
          and Assessment Program
 NOAA     Habitat Conservation                            11.463            40            8              20            I
 NOAA     Unallied Science Program                        11.472            18            I               6            I
          BroadbanlTechnology Opportunities
 NTIA                                                     11 .557           8             4              50            12
          Program (BTOP)
          State Broadband D ata and Development
 NTIA                                                     11.558            10            3              30            5
          Grant Program
          Public Telecommunications Facilities Planning
 NTIA                                                     11.550            16            I               6            3
          and Construction
 NIST     Manufacturing Extension Partnership (MEP)       11.611            49            IS             3-1           12


As shown in table 2, the Commerce bureau programs with the most material findings were
EDA RLF, NTIA BTOP, and NIST MEP, each with 12. The programs with the highest
percentage of reports with material and/or nonresolution findings were EDA RLF, EDA
Investments for Public Works and Economic Development Facilities, and NTIA BTOP, each
with at least 50 percent.

The most common finding types across all Commerce programs included noncompliance with
"Reporting" and "Other" requirements. Findings in the "Other" category included (I) a lack of
segregation of duties, (2) the CPA firm playing a large role in preparing the financial statements,
and (3) assistance from CPA firms in the preparation of the Schedule of Expenditures of Federal
Awards.

The next most frequent nonresolution findings related to "Special Tests and Provisions"
associated with the EDA RLF Program. The findings included (I) noncompliance with RLF
capital utilization rates (generally EDA requires recipients to have at least 75 percent of the
RLF's capital base loaned or committed at any given time), (2) bank turndown letters that could
not be located (demonstrating that credit is not otherwise available), and (3) incorrect
calculation of RLF expenditures on the Schedule of Expenditures of Federal Awards (SEFA).




                                                                    3

Our single audit team-which will provide the bureaus a detailed summary of the findings-is
ready to discuss these results in more detail as the Department proceeds with the resolution of
findings. If you have any questions, please contact me at (202) 482-4661 or Andrew Katsaros at
(202) 482-7859.

cc: 	   Lisa Casias, Director for Financial Management and Deputy Chief Financial Officer
        Barry E. Berkowitz, Director, Office of Acquisition Management
        Gordon Alston, Deputy Director for Financial Management
        Julie Tao, Director, Office of Internal Controls, Office of Financial Management
        Gary Johnson, Office of Acquisition Management, Grants Management Division
        Andrew Katsaros, Assistant Inspector General for Audit, OIG
        Patty McBarnette, Director, Financial Statement Audits, O IG
        Hari Sastry, Deputy Assistant Secretary, Office of Acquisition Management
        Mark Daley, Deputy Director, Office of Acquisition Management
        Jon Alexander, Chief Financial Officer, NOAA
        Sandra Walters, Chief Financial Officer, EDA
        Len Bechtel, Director and Chief Financial Officer, NTIA
        George E. Jenkins, Chief Financial Officer, NIST
        Edith McCloud, Associate Director for Management and Chief Financial Officer, MBDA




                                              4

